      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




December 12, 2011

TO:           George H. Sheldon
              Acting Assistant Secretary
              Administration for Children and Families


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Review of 24 Head Start Grantees’ Compliance With Health and Safety
              Requirements (A-01-11-02503)


The attached final report provides the results of our review of 24 Head Start grantees’
compliance with health and safety requirements. The Office of Audit Services and the
Administration for Children and Families, Office of Head Start, worked in collaboration to select
the 24 grantees in our reviews.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov. We look forward to receiving your
final management decision within 6 months. Please refer to report number A-01-11-02503 in all
correspondence.


Attachment
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF 24 HEAD START GRANTEES’
  COMPLIANCE WITH HEALTH AND
      SAFETY REQUIREMENTS




                         Daniel R. Levinson
                          Inspector General

                           December 2011
                           A-01-11-02503
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No.111-5 (Recovery Act), signed
into law on February 17, 2009, included measures to modernize our Nation’s infrastructure,
enhance energy independence, expand educational opportunities, preserve and improve
affordable health care, provide tax relief, and protect those in greatest need.

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as “Head Start.” Within the Department of Health and Human
Services, the Administration for Children and Families (ACF), Office of Head Start, administers
Head Start. In fiscal year (FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s
regular operations. The Recovery Act provided an additional $2.1 billion for Head Start during
FYs 2009 and 2010. These funds were intended for activities such as expanding enrollment,
funding cost-of-living wage increases for grantees, upgrading centers and classrooms, and
bolstering training and technical assistance.

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing requirements. If State and
local licensing standards are less stringent than the Head Start regulations or if no State licensing
standards are applicable, grantees must ensure that their facilities comply with the “Head Start
Program Performance Standards” related to health and safety (45 CFR § 1306.30(c)).

From May 2009 through October 2010, we conducted site visits and assessed health and safety
compliance at 24 Head Start grantees that managed 175 facilities in 8 States.

OBJECTIVE

Our objective was to summarize the results of 24 Head Start health and safety audits that
determined whether grantees complied with applicable Federal, State, and local regulations and
standards.

SUMMARY OF FINDINGS

Of the 24 Head Start grantees we reviewed, none complied fully with Federal Head Start or State
requirements to protect children from unsafe materials and equipment, and 21 of 24 grantees did
not comply fully with Federal Head Start or State requirements to conduct criminal records
checks, conduct recurring background checks, document criminal records checks, conduct
checks of childcare exclusion lists, or conduct checks of child abuse and neglect registries.

                                                  i
The State requirements varied. ACF could adopt some of the State-specific requirements for
background checks to better protect the health and safety of children. Those State requirements
included periodic fingerprinting, conducting recurring background checks, and developing an
exclusion list to deny employment to individuals who have been convicted of certain crimes.

RECOMMENDATIONS

We recommend that ACF:

   •   ensure through onsite monitoring that Head Start grantees comply with health and safety
       regulations;

   •   perform an analysis to determine whether it should seek a legislative amendment of
       Federal health and safety requirements that would require periodic background checks for
       all Head Start employees; and

   •   amend current policy and regulations to require that any prospective or current employee
       be disqualified for or terminated from employment with a Head Start grantee if the
       individual has been convicted of sexual abuse of a child, other forms of child abuse and
       neglect, or a violent felony.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF stated that it is analyzing our recommendation to
implement periodic background checks of all Head Start employees. In addition, ACF stated that
it is analyzing the need for legislative action related to implementing periodic background
checks, its regulatory authority to change the current requirements for background checks, and
its authority to amend current policies related to background checks. ACF stated that, if
applicable, it will follow the standard Federal process for promulgating regulations. ACF’s
comments are included in their entirety as Appendix D.




                                               ii
                                                   TABLE OF CONTENTS
                                                                                                                               Page


INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
             American Recovery and Reinvestment Act of 2009.........................................1
             Head Start Program ...........................................................................................1
             Federal Regulations ..........................................................................................1
             Office of Inspector General Reviews of Head Start Grantees ..........................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope .................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          COMPLIANCE WITH APPLICABLE REGULATIONS AND STANDARDS .....3
             Materials, Equipment, and Security ..................................................................3
             Background Checks ..........................................................................................5

          RECOMMENDATIONS ...........................................................................................6

          ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS ..............7


APPENDIXES

          A: OFFICE OF INSPECTOR GENERAL’S 24 HEAD START HEALTH
             AND SAFETY AUDITS

          B: LACK OF COMPLIANCE WITH MATERIAL SAFETY, EQUIPMENT
             SAFETY, AND FACILITY SECURITY

          C: STATE CHILDCARE LICENSING REQUIREMENTS

          D: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                                                                     iii
                                        INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No.111-5 (Recovery Act), signed
into law on February 17, 2009, included measures to modernize our Nation’s infrastructure,
enhance energy independence, expand educational opportunities, preserve and improve
affordable health care, provide tax relief, and protect those in greatest need.

The Recovery Act provided for additional levels of transparency and accountability so that
taxpayers know how, when, and where tax dollars are spent. To achieve this, the Office of
Management and Budget issued guidance requiring Federal agencies and departments to
implement and maintain strong internal controls to meet the Recovery Act’s accountability
objectives. The Offices of Inspectors General provide oversight of Recovery Act funds to
prevent fraud, waste, and abuse.

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as “Head Start.”

Within the Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Head Start, administers Head Start. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The Recovery Act provided an additional $2.1 billion for Head Start during FYs 2009 and 2010.
These funds were intended for activities such as expanding enrollment, funding cost-of-living
wage increases for grantees, upgrading centers and classrooms, and bolstering training and
technical assistance.

Federal Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing requirements. If State and
local licensing standards are less stringent than the Head Start regulations or if no State licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).



                                                  1
Office of Inspector General Reviews of Head Start Grantees

Based on our evaluation of licensing and background check requirements for Head Start grantees
in all 50 States, we collaborated with ACF in selecting 3 Head Start grantees from each of
8 States that were most at risk for noncompliance with health and safety regulations and
standards. We audited 24 Head Start grantees, with 175 Head Start facilities, to determine
whether they complied with regulations and standards (Appendix A).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to summarize the results of 24 Head Start health and safety audits that
determined whether grantees complied with applicable Federal, State, and local regulations and
standards.

Scope

From May 2009 through October 2010, we conducted site visits and assessed health and safety
compliance at 24 Head Start grantees that managed 175 facilities in 8 States. The reviews were
done by staff from our regional offices nationwide. We did not review ACF’s system of internal
controls because our objective did not require us to do so.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State laws, regulations, and policies related to Federal grant awards
        and Head Start;

   •    reviewed 2,409 Head Start employee files;

   •    reviewed grantees’ licenses and documentation of fire inspections;

   •    visited and assessed 175 Head Start facilities managed by 24 grantees; and

   •    held regular discussions with ACF on the status and results of the audits.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 2
                           FINDINGS AND RECOMMENDATIONS

Of the 24 Head Start grantees we reviewed, none complied fully with Federal, State, and local
health and safety regulations and requirements. Specifically, we found the following:

   •   None of the grantees complied fully with Federal Head Start or State requirements to
       protect children from unsafe materials and equipment, such as toxic chemicals, broken
       fences and gates, and unsafe playground equipment.

   •   Twenty-one of twenty-four grantees did not comply fully with Federal Head Start or
       State requirements to conduct criminal records checks, conduct recurring background
       checks, document criminal records checks, conduct checks of childcare exclusion lists, or
       conduct checks of child abuse and neglect registries. Among these grantees’ employees,
       588 out of 2,409 (24 percent) had not met all Federal or State preemployment
       requirements.

According to ACF, 21 of the grantees have corrected the deficiencies that we identified in our
audits, and 3 have relinquished grants totaling $7.7 million in Head Start funds and $475,635 in
related Recovery Act funds. ACF has approved interim grantees to ensure that Head Start
services continue uninterrupted until ACF approves permanent replacements.

ACF could adopt some of the State-specific requirements for background checks to better protect
the health and safety of children. Those State requirements included periodic fingerprinting,
conducting recurring background checks, and developing an exclusion list to deny employment
to individuals who have been convicted of certain crimes.

COMPLIANCE WITH APPLICABLE REGULATIONS AND STANDARDS

Materials, Equipment, and Security

Federal and State Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment. In
addition, 45 CFR § 1304.53(a)(7) states that grantees must provide for the security of all Head
Start facilities.

The regulations (45 CFR § 1304.53(a)(10)) state that grantees must conduct a safety inspection
at least annually to ensure that each facility’s space, light, ventilation, heat, and other physical
arrangements are consistent with the health, safety, and developmental needs of children.
Grantees must ensure that approved, working fire extinguishers are readily available and that
premises are cleaned daily and kept free of undesirable and hazardous materials and conditions.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with State and local licensing requirements. If these licensing standards are less comprehensive
or stringent than Federal Head Start regulations or if no State or local standards are applicable,

                                                  3
grantees must ensure that their facilities comply with the Head Start Program Performance
Standards related to health and safety found in 45 CFR § 1304.53(a).

Compliance With Materials, Equipment, and Security Requirements

For the 24 grantees in our review, we visited 175 facilities. Each grantee had one or more
facilities providing Head Start services.

We determined that 163 of 175 facilities (93 percent) did not comply fully with Federal Head
Start and State requirements that aim to protect children from unsafe materials and equipment or
did not comply fully with Federal and State security regulations. Material, equipment, and
security deficiencies included:

   •   Eighty-eight percent of facilities had toxic chemicals that were accessible to children,
       such as markers labeled “keep out of reach of children” and cleaning supplies (Appendix
       B, photographs 1 and 2).

   •   Seventy-one percent of facilities had open or broken gates leading to parking lots, busy
       streets, or unsupervised areas and inadequate or broken fences (Appendix B, photographs
       3 and 4).

   •   Sixty-three percent of facilities had play areas not kept free of debris (e.g., glass and
       nails) or other harmful conditions, including poison ivy, large drain grates, protruding
       tree roots, and fire ant mounds (Appendix B, photographs 5 and 6).

   •   Fifty-four percent of facilities had playground equipment that was not in good repair,
       including items with protruding bolts, broken climbing apparatuses, and elevated
       platforms without protective guards (Appendix B, photographs 7 and 8).

   •   Thirty-eight percent of facilities had doors that were unlocked or propped open during
       hours of operation, allowing unrestricted access to the buildings and classrooms
       (Appendix B, photograph 9).

   •   Twenty-one percent of facilities had hazardous items that were improperly stored and
       accessible to children; at one facility, a machete and a gas-powered hedge trimmer were
       left unattended near the children’s play area (Appendix B, photographs 10A and 10B).

These deficiencies occurred because grantees did not have adequate procedures or did not
consistently follow procedures that were in place to ensure compliance with Federal and State
health and safety requirements.




                                                 4
Background Checks

Federal and State Requirements

The Head Start Act (42 U.S.C. § 9843A(g)(3)) states, “Before a Head Start agency employs
an individual, such agency shall obtain: (A) a State, tribal, or Federal criminal record check
covering all jurisdictions where the grantee provides Head Start services to children; (B) a
State, tribal, or Federal criminal record check as required by the law of the jurisdiction where
the grantee provides Head Start services; or (C) a criminal record check as otherwise required
by Federal law.” Federal Head Start regulations (45 CFR § 1301.31(b)(2)) state that grantees
must require each current and prospective employee to sign a declaration that lists
(1) pending and prior criminal arrests and charges and their disposition related to child sexual
abuse, (2) convictions related to other forms of child abuse and neglect, and (3) convictions
for violent crimes.

In addition, Federal Head Start regulations (45 CFR § 1306.30(c)) state that grantees must
comply with State and local licensing requirements related to health and safety. These
requirements vary from State to State (Appendix C).

                                                                     Compliance With Background Check
                 Percentage of Employees Lacking
                                                                     Requirements
                  Sufficient Background Checks
                    at 24 Head Start Grantees
                           Nine                                      As illustrated, only 3 of the 24
                          Grantees                                   grantees complied with all Federal
                 Six
                                                                     and State requirements for employee
               Grantees                                              background checks. Twenty-one
                                                                     grantees did not have proper
     Three                                                 Three
    Grantees                           Two                Grantees   employee background check
                                     Grantees    One                 documentation for 588 of 2,409
                                                Grantee              employees (24 percent). Grantees
                                                                     were not compliant with Federal and
                                                                     State preemployment requirements,
                                                                     including the following:


   •   preemployment criminal records checks,

   •   criminal records checks after unconditional employment,

   •   signed employee declarations,

   •   child abuse and neglect registry checks, and

   •   exclusion list checks to disqualify employment based on criminal history.



                                                          5
These deficiencies occurred because grantees did not have adequate procedures or did not
consistently follow procedures that were in place to ensure compliance with Federal and State
health and safety regulations.

State-Specific Background Checks

All eight States in our review required grantees to conduct preemployment criminal records
checks. However, we found that the requirements for additional background checks of childcare
employees varied significantly from State to State. For example, of the eight States in our
review:

   •   seven required grantees to check the State child abuse and neglect registry,

   •   five required grantees to check fingerprints with State or Federal officials as part of the
       criminal records checks,

   •   four required grantees to update employee background checks every 24 months or on a
       continual basis, and

   •   two required grantees to check the State sex offender registry.

In addition, seven of the eight States developed exclusion lists to disqualify individuals from
childcare employment if they committed certain crimes, such as assault, assault with a dangerous
weapon, burglary, robbery, kidnapping, and unlawful distribution or possession of a controlled
substance.

Adopting some of the State-specific requirements that we have identified could help ACF to
better protect the health and safety of children.

RECOMMENDATIONS

We recommend that ACF:

   •   ensure through onsite monitoring that Head Start grantees comply with health and safety
       regulations;

   •   perform an analysis to determine whether it should seek a legislative amendment of
       Federal health and safety requirements that would require periodic background checks for
       all Head Start employees; and

   •   amend current policy and regulations to require that any prospective or current employee
       be disqualified for or terminated from employment with a Head Start grantee if the
       individual has been convicted of sexual abuse of a child, other forms of child abuse and
       neglect, or a violent felony.



                                                 6
ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF stated that it is analyzing our recommendation to
implement periodic background checks of all Head Start employees. In addition, ACF stated that
it is analyzing the need for legislative action related to implementing periodic background
checks, its regulatory authority to change the current requirements for background checks, and
its authority to amend current policies related to background checks. ACF stated that, if
applicable, it will follow the standard Federal process for promulgating regulations. ACF’s
comments are included in their entirety as Appendix D.




                                              7
APPENDIXES
                                                                Page 1 of 3


     APPENDIX A: OFFICE OF INSPECTOR GENERAL’S 24
        HEAD START HEALTH AND SAFETY AUDITS

Report Number             Title of Report             Date Issued
A-09-11-01000   Review of Kings Community Action      06/17/2011
                Organization’s Compliance With
                Health and Safety Regulations for
                Head Start Programs
A-03-09-00369   Review of the United Planning         03/24/2011
                Organization’s Compliance With
                Health and Safety Regulations for
                Head Start Programs
A-03-09-00363   Review of the District of Columbia,   11/16/2010
                Parks and Recreation Compliance
                With Health and Safety
                Regulations for Head Start
                Programs
A-06-10-00053   Review of Head Start Health and       09/24/2010
                Safety Standards at Rolling Plains
                Management Corporation
A-06-10-00060   Review of Head Start Health and       09/24/2010
                Safety Standards at Advocates for
                Children and Families, Inc.
A-02-09-02018   Review of Head Start Health and       09/23/2010
                Safety Standards at Albany
                Community Action Partnership
A-06-09-00081   Review of Community Council of        09/21/2010
                South Central Texas, Inc.’s
                Compliance With Health and
                Safety Regulations for Head
                Start Programs
A-05-10-00040   Review of Renewal Unlimited,          09/17/2010
                Inc.’s Compliance With Health and
                Safety Regulations for Head Start
                Programs
A-02-10-02004   Review of Joint Council for           09/10/2010
                Economic Opportunity of Clinton
                and Franklin Counties, Inc.’s
                Compliance With Health and
                Safety Regulations for Head
                Start Programs
A-09-09-00089   Review of Inyo Mono Advocates for     08/30/2010
                Community Action’s Compliance
                With Health and Safety
                Regulations for Head
                Start Programs
                                                               Page 2 of 3


Report Number              Title of Report           Date Issued
A-09-10-01008   Review of North Coast                08/30/2010
                Opportunities, Inc.’s Compliance
                With Health and Safety
                Regulations for Head
                Start Programs
A-02-09-02013   Review of Head Start Health and      08/09/2010
                Safety Standards at Brooklyn Child
                Family Services, Inc.
A-05-10-00022   Review of ADVOCAP Inc.’s             07/30/2010
                Compliance With Health and
                Safety Regulations for Head
                Start Programs
A-07-09-02764   Review of Head Start Health and      07/20/2010
                Safety Standards at Cerebral Palsy
                of Colorado, Inc.
A-05-09-00079   Review of Northcott Neighborhood     07/12/2010
                House’s Compliance With Health
                and Safety Regulations for Head
                Start Programs
A-03-09-00361   Review of Community Development      06/25/2010
                Institute Head Start, North Metro
                DC Compliance With Health and
                Safety Regulations for Head Start
                Programs
A-01-10-02500   Review of West Haven Community       06/25/2010
                House Association, Inc.’s
                Compliance With Health and
                Safety Regulations for Head Start
                Programs
A-07-09-02763   Review of Head Start Health and      05/27/2010
                Safety Standards at Longmont
                Children’s Council
A-07-09-02761   Review of Head Start Health and      04/21/2010
                Safety Standards at Saguache
                County Community Council
A-04-09-03527   Review of the Head Start Health      04/15/2010
                and Safety Standards at Tallatoona
                Community Action Partnership,
                Inc.

A-04-09-03528   Review of the Head Start Health      03/22/2010
                and Safety Standards at Coastal
                Plain Area Economic Opportunity
                Authority, Inc.
                                                              Page 3 of 3


Report Number            Title of Report            Date Issued

A-04-09-03531   Review of the Head Start Health     03/18/2010
                and Safety Standards at
                Community Action for
                Improvement, Inc.
A-01-09-02508   Review of Norwalk Economic          03/18/2010
                Opportunity Now, Inc.’s
                Compliance With Health and
                Safety Regulations for Head
                Start Programs
A-01-09-02505   Review of New Opportunities,        12/07/2009
                Inc.’s Compliance With Health and
                Safety Regulations for Head Start
                Programs
                                                                     Page 1 of 6

APPENDIX B: LACK OF COMPLIANCE WITH MATERIAL SAFETY,
      EQUIPMENT SAFETY, AND FACILITY SECURITY




Photograph 1: Classroom art supplies that are hazardous to children’s health
were accessible to children. The labels on these markers state, “KEEP OUT OF
REACH OF CHILDREN.”




Photograph 2: Paint and cleaning supplies were in an unlocked stairwell
accessible to children.
                                                                         Page 2 of 6




Photograph 3: The perimeter fence of a play area next to a busy street
had an open gate.




Photograph 4: A broken gate was held together by wire.
                                                                         Page 3 of 6




Photograph 5: A walkway to a children’s outdoor play area had a board with
rusted nails.




Photograph 6: One of several drains in an outdoor play area had spacing between
the metal grids (approximately 2 inches) wide enough for a small child’s foot to get
caught.
                                                                     Page 4 of 6




Photograph 7: A children’s outdoor climbing apparatus had an unattached
structural support pole with sharp edges.




Photograph 8: An elevated platform did not have protective guards to prevent a
child from falling.
                                                                    Page 5 of 6




Photograph 9: An unlocked door allowed unsupervised access to classrooms.
                                                                   Page 6 of 6




Photograph 10A (above) and 10B (below): Two photographs of the
same stairway show a machete, a metal rake, and a gas-powered
hedge trimmer left unattended. The stairs were next to a walkway
that children used to get to an outdoor play area.
             APPENDIX C: STATE CHILDCARE LICENSING REQUIREMENTS

                   Child
                 Abuse and        Sex                                            State        Update of
                  Neglect      Offender          State          Federal        Exclusion     Background
        State     Registry     Registry      Fingerprints     Fingerprints       List 1         Checks
        CA       Yes           Yes           Yes              Yes              Yes          No
        CO       Yes           No            Yes              No               Yes          Continuous 2
        CT       Yes           No            Yes              Yes              No           No
        DC       Yes           Yes           Yes              Yes              Yes          Yes
        GA       No            No            No               No               Yes          No
        NY       Yes           No            Yes              No               Yes          Continuous2
        TX       Yes           No            Yes              Yes              Yes          Every 24
                                                                                            months
        WI       Yes           No            No               No               Yes          No




1
 State exclusion lists identify individuals who should be disqualified from childcare employment because they had
committed specified offenses, such as an assault, assault with a dangerous weapon, burglary, robbery, kidnapping,
and unlawful distribution or possession of a controlled substance.
2
 New York and Colorado each had a system in which the State agency conducting the criminal records check (e.g.,
State Bureau of Investigations) would notify the State licensing agency or the childcare provider (in this case, the
Head Start grantee) if a Head Start employee had committed a crime.
                                                                                            Page 1 of 2

                                                 LIES COMMENTS
APPENDIX D: ADMINISTRATION FOR CHILDREN AND FAMI



DEPARTMENT OF HEALT H &. HUMA N SERVICES
- -- -- - - - -- - - - - _ .                   __ _ __ -_.
                                                 .   ..



                                                          ADMINI STRATI ON FOR CHILDREN AND FAMILIES
                                                          Office 01 the Assistan t Secretary , Suite 600
                                                          370 L'Enfant Promen ade, S.W.
                                                          Washing ton, D.C. 20447
         OCT 2 0 2011



TO: 	         Daniel R. Levins on
              Inspec tor Genera l

FROM :        George H. Sheldo n
              Acting Assista nt Secreta
                for Childr en and Fami    l'

                                                                                  24
SUBJE CT: 	   Office of Inspec tor General (OIG) Draft Report titled, "Revie w of
                                                            and   Safety Requir ements "
              Head Start Grante es ' Compliance with Health
              (A-OI- II-025 03)

                                                                      es on the
Attached are comme nts of the Administration for Childre n and Famili
above- mentio ned OIG draft report.

                                                                  contac t Yvette Sanchez
Should you have questio ns or need additional information, please
Fuentes, Directo r, Office of Head Start, at (202) 205-8573 .

Attach ment
                                                                                                 Page 2 of 2




                                                 AND FAMI LIES ON
COMMENTS OF THE ADMI NISTR ATION FOR CHILD REN
                                                TITLE D, "REVI EW OF
THE OFFICE OF INSPE CTOR GENERAL DRAF T REPO RT
                                                TH AND SAFET Y
24 HEAD STAR T GRAN TEES' COMPLIANCE WITH HEAL
REQU IREM ENTS" (A-OI -ll-025 03)

                                                                    opportunity to comment on
The Administration for Childr en and Families (ACF) appreciates the
                                                  draft report.                   .
the above-cited Office of mspec tor General (OIG)

OIG RECO MMEN DATIO NS

We recommend that ACF:
                                                                        with health and safety
   • 	 ensure through onsite monitoring that Head Start grantees comply
       regulations;
                                                                              amendment of
    • 	 perform an analysis to determine whether it should seek a legislative
                                                                                  ound checks for
        Federal health and safety requirements that would require periodic backgr
        all Head Start employees; and
                                                                              or current employee
    • 	 amend current policy and regulations to require that any prospective
                                                                         Start grantee if the
        be disqualified for or terminated from employment with a Head
                                                                               of child abuse and
        individual has been convicted of sexual abuse of a child, other forms
        neglect, or a violent felony.

ACF RESPO NSE
                                                                     monitors on these
ACF takes health and safety regulations very seriously and regularly
                                                        work  with OIG  to have another set of
regulations. ACF took advantage of the opportunity to
                                                                     ACF,  OHS and OIG for an
reviewers do an additional check on programs that were selected by
                                                                      conducted health and safety
in-depth health and safety review. Of the 24 grantees for which OIG
audits, three were terminated and 21 cOlTected their deficiencies.
                                                                               ound checks for all
 ACF is analyzing OIG's recommendation of implementing periodic backgr
                                                                   tive action  related to this
.Head Start employees and analyzing the potential need for legisla
                                                                        ty to  make  a change to the
 recommendation. In additio n OHS is reviewing its regulatory authori
                                                                         standar  d Federa l pr~)Cess
 current requirements around background checks. ACF will follow the
                                                                            issuing any new
 for promulgating regulations, including a public comment period before
 requirements.

                                                                         s related to background
 ACF is also exploring its regulatory authority to amend current policie
                                                      of these require ments,  it would follow the
 checks as OIG suggested. Were ACF to amend any
                                                                ng a public  comme   nt period before
 standard Federal process for promulgating regulations, includi
 any new regulation becam e final.



                                                   1
